No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re Donovan G. Davis, Jr.

PROOF OF SERVICE
I, Donovan G. Davis, Jr •

9

do swear or declare that on this date, October

28, 2020, as required by Supreme Court Rule 29 I have serve the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on
each party to the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the above
l

mentioned documents in the United States mail properly addressed to each of them
and with first-class postage prepaid.
The names and addresses of those served are as follows:
United States Supreme Court
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Office of the Solicitor General of the United States
Executive Office of the United States
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 28, 2020.

I^rfovan G. Davjis

RECEIVED
N0V 12 2020

